         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Management Controls over
Warranties Involving Newly
Constructed and Renovated
Facilities at National Defense
Laboratories



OAS-M-10-02                            June 2010
                                  Department of Energy
                                    Washington, DC 20585
                                          June 15, 2010


MEMORANDUM FOR THE MANAGERS, LIVERMORE SITE OFFICE, LOS ALAMOS
               SITE OFFICE, AND SANDIA SITE OFFICE


FROM:                    George W. Collard
                         Assistant Inspector General
                            for National Security and Energy Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Management Controls over
                         Warranties Involving Newly Constructed and Renovated Facilities at
                         National Defense Laboratories"

BACKGROUND

The Department of Energy's (Department) National Nuclear Security Administration's (NNSA)
research, surveillance, and manufacturing capabilities are carried out in facilities, many of which
are 50 to 60 years old. Since these facilities are beyond their economic lifetime, NNSA
requested and acquired funding not only to construct new facilities but also to restore and
revitalize older ones. These construction projects enable NNSA to maintain the critical
capabilities necessary to support its programmatic efforts such as nuclear nonproliferation,
counterterrorism, and emergency response work.

Between Fiscal Years (FY) 2004 and 2008, Congress provided over $1 billion in line-item and
General Plant and Project funds to construct and renovate facilities at Lawrence Livermore,
Sandia, and Los Alamos National Laboratories (Laboratories). NNSA plans to spend an
additional $18 billion over the next 10 years to complete construction of facilities in the process
of being built as of April 2009. To ensure quality, NNSA required Laboratories to have
construction contractors provide warranties for their equipment and work. Federal Acquisition
Regulation 52.236-23 also requires design contractors to correct or revise, without compensation,
any errors or deficiencies in design, drawings, and specifications. Laboratories also required that
contractors reimburse the Laboratories for needed remediation if they did not satisfy the
warranty terms after reasonable notice of defect.

Based on the significant amount of funds invested in construction projects at defense
Laboratories, we conducted this audit to determine whether NNSA Laboratories exercised
contract warranties to correct defects in equipment, material, workmanship, or design of newly
constructed and renovated facilities.

RESULTS OF AUDIT

NNSA Laboratories had not always adequately managed contract warranties. Rather, the
Laboratories performed work to correct defects in equipment, material, workmanship or design
in the construction of facilities even though these items were covered by a warranty. In 40
                                                 2


(23 percent) of the 172 work orders performed between October 1, 2004, and September 30,
2008, that we reviewed, Laboratories performed needed repairs or replacements themselves for
items covered by a warranty. Additionally, one of the Laboratories did not seek indemnification
from contractors that did not satisfy warranty provisions. When the Laboratories pursue these
remedies in-house rather than exercise the provisions of the warranties, the taxpayers bear the
burden of the repairs. For example:

       Livermore spent approximately $40,000 to repair tiled floors in the TeraScale Simulation
       Facility, including 6 different repairs within the first 10 months after final acceptance of
       the facility. According to Livermore officials, both the design and construction
       subcontractors agreed that the floor tile defect resulted from a design error. Livermore,
       however, did not attempt to recover the costs from the design subcontractor even though
       its contract required the design firm to correct, without compensation, defects caused by
       design omissions and errors;

       Sandia repeatedly repaired a defective heating and ventilation unit at its Central Utility
       Building during the warranty period and replaced the unit two months after the expiration
       of a warranty; and,

       Los Alamos did not seek indemnification after unsuccessful attempts to have a warranty
       contractor make necessary repairs. In that case, Los Alamos replaced defective concrete
       at a cost of approximately $42,000 in its National Security and Science Building within
       nine months after accepting the facility.

The Laboratories had not implemented effective controls to ensure that the warranty provisions
specified in contracts were enforced. For 37 of the 40 work orders where the Laboratories
performed work to repair or replace "in-warranty" items, we found that Project Managers did not
provide warranty documentation, including warranty start dates or points of contacts from which
to seek remedy, to personnel responsible for requesting, planning and performing work orders.
Of particular note, Los Alamos' Project Acceptance and Closeout Procedure did not require
construction Project Managers to transfer warranty documentation to facility operations
personnel upon construction completion. As such, personnel were sometimes unaware of
warranty options available.

Although personnel at Los Alamos and Livermore were aware that warranties may have existed
for the remaining three work orders we examined, they did not have accurate or complete
information to request warranty repairs. Initially, Livermore officials told us that the warranty
for defective tile work was not exercised because management thought the warranty had expired.
We found, however, that it actually was enforceable for about another two months under the
construction contract. Subsequently, Livermore officials stated that they contacted the
subcontractor and designer who cited the adhesive failure as a design error; however Livermore
could not provide any documentary evidence to that effect. Livermore could have pursued
correcting the tile problem under the architect's responsibilities for errors and omissions but had
stopped tracking such design issues two years prior to final acceptance of the building. For the
other two work orders, Los Alamos decided to perform the work themselves after the contractors
were unresponsive to their requests to perform under the terms of the warranty. In these cases,
                                                 3


Los Alamos managers were unaware that they could or were responsible for seeking
indemnification from the contractors for the repair work.

Managers also told us, as a general observation, that it may not always be cost effective to
exercise a warranty. We found this argument unpersuasive since the Laboratories did not
perform cost benefit analyses to determine if it was cost-effective prior to performing work on
in-warranty items. Further, unless management requests that contractors repair and replace
defective work, the Laboratories cannot be certain that any additional costs will be incurred in
exercising the warranties.

Warranties that were not exercised during the warranty period resulted in unnecessary repair
costs. Based on a projection of our statistical sample of work orders, the three Laboratories
likely incurred at least $1.5 million by performing repairs that were covered by a warranty
between FYs 2004 and 2008. Unnecessary repair costs, also, reduced funds available for direct
mission and other mission support work. In addition, the Laboratories increased the risk of
voiding warranties and decreased the opportunities to seek remediation when construction
contractors or equipment manufacturers were not notified prior to making the repairs. This risk
could impact corrective actions since warranties generally require that the contractor be provided
the opportunity to remedy defects. To reduce unnecessary expenses, we made recommendations
to improve the use of warranties to protect the Government's interest.

MANAGEMENT REACTION

NNSA management agreed with the report and the recommendations. Management's comments
have been provided in their entirety in Appendix 3.

Attachments

cc: Administrator, National Nuclear Security Administration
    Deputy Secretary
    Chief of Staff
    Acting Director, Office of Project Management and Systems Support, NA-54
    Director, Office of Acquisition and Supply Management, NA-63
    Director, Office of Engineering and Construction Management MA-50
    Director, Office of Risk Management, CF-80
    Director, Office of Internal Controls, NA-66
    Team Leader, Office of Risk Management, CF- 80
    Audit Resolution Specialist, Office of Risk Management, CF-80
REPORT ON MANAGEMENT CONTROLS OVER WARRANTIES
INVOLVING NEWLY CONSTRUCTED AND RENOVATED FACILITIES



TABLE OF
CONTENTS

Use of Warranties for Newly Constructed and Renovated Facilities

Details of Finding                                                 1

Recommendations                                                    4

Comments                                                           5


Appendices

1.   Objective, Scope, and Methodology                             6

2.   Prior Reports                                                 8

3.   Management Comments                                           9
Use of Warranties For Newly Constructed and Renovated Facilities

Use of Warranties      The National Nuclear Security Administration's (NNSA) Lawrence
for Newly              Livermore (Livermore), Sandia (Sandia), and Los Alamos (Los
Constructed and        Alamos) National Laboratories (Laboratories) had not always
Renovated Facilities   exercised contract warranties to correct defects in equipment,
                       material, workmanship or design in the construction of facilities.
                       Rather, the Laboratories performed repair work themselves even
                       though the defect was covered by a contract warranty. One of the
                       Laboratories also did not seek indemnification from contractors
                       that did not satisfy warranty provisions.

                                           Laboratory Warranty Work

                       NNSA's Laboratories performed work that was covered by
                       warranties. Through the inclusion of contract terms, NNSA
                       Laboratories required construction contractors to warranty that
                       their work conformed to contract requirements and was free of any
                       defects in equipment, material, workmanship, or design for up to
                       one year after final acceptance of the work. Furthermore, when a
                       contractor fails to remedy a defect within a reasonable amount of
                       time after receipt of notice, the standard Laboratory contract terms
                       allow for the replacement or repair of the defect or damage at the
                       contractor's expense. To evaluate compliance with these terms we
                       statistically selected and reviewed 172 work orders performed
                       between October 1, 2004, and September 30, 2008, at 30 facilities
                       located at the three Laboratories. Our testing revealed that 40
                       work orders (23 percent) were for repairs that were covered by
                       contract warranty provisions. For example:

                              Livermore repaired tile floors that began to uplift at its
                              TeraScale Simulation Facility (TSF). Within the first 10
                              months of final acceptance, Livermore made 6 different
                              repairs to the tiles in the TSF. According to Livermore
                              personnel, the adhesive did not adhere and caused the tile
                              to bubble. Maintenance personnel stated that the adhesive
                              was not applied correctly. Initially, Livermore officials
                              told us that the warranty for tile work was not exercised
                              because management thought that it had expired.
                              Subsequently, Livermore officials told us they the
                              Laboratory notified the tile subcontractor and designer,
                              almost one year after final acceptance, and both agreed the
                              tile problem was a design issue. Livermore, however,
                              could not provide any documentary evidence of the
                              designer's acceptance that there was a design issue. Under
                              the terms of the design subcontract, the tile problem would
                              have been covered under the designer's errors and
                              omissions clause which, in effect, provides a warranty



Page 1                                                                Details of Finding
                    against defects caused by errors and omissions in the
                    design. We found, however, that Livermore ceased
                    tracking design errors and omissions for this facility
                    approximately two years prior to the final acceptance of the
                    building. Livermore spent approximately $40,000 to repair
                    the tile and did not seek remedy for the repairs.

                    Sandia replaced a heating and ventilation unit at its
                    Central Utility Building that, according to technicians, was
                    defective and repaired prior to being replaced. Even
                    though management acknowledged that the warranty
                    should have been extended due to prior repairs, Sandia
                    spent approximately $20,000 to replace the unit. At its
                    Microsystems and Engineering Sciences Application
                    Facility, Sandia spent approximately $3,000 to replace
                    defective and unreliable automatic flush units with manual
                    units. Sandia performed these repairs less than one year
                    after these facilities were completed.

                    Los Alamos did not seek indemnification after they
                    replaced defective concrete at its National Security and
                    Science Building (NSSB) at cost of approximately
                    $42,000. After efforts to have the contractor repair the
                    defective concrete failed, Los Alamos replaced the
                    concrete themselves but did not seek remedy for the cost
                    of the repairs. In the same building, Los Alamos also
                    replaced a pipe fitting that did not meet specifications and
                    failed. The improper fitting resulted in flooding which
                    damaged equipment, walls, and ceilings. Los Alamos
                    spent over $20,000 to replace the fitting and repair the
                    damage. In both cases, Los Alamos performed the work
                    less than one year after the facility was completed.

Laboratory   Laboratories did not ensure that warranty provisions included in
Controls     construction contracts were enforced. In 37 of the 40 work orders
             reviewed, the Laboratories did not provide warranty documentation
             to personnel responsible for requesting, planning and performing
             work orders. Therefore, personnel responsible for authorizing
             repairs on newly constructed or renovated facilities and its
             equipment were unaware that a warranty existed. At Los Alamos,
             for example, the Project Acceptance and Closeout Procedure, in
             effect at the time of our audit, did not require construction project
             managers to transfer warranties to facility operations personnel.
             Even though Los Alamos updated the Project Acceptance and
             Closeout Procedure in September 2009, the procedure did not




Page 2                                                       Details of Finding
         address how construction project managers should transfer
         warranty information to building operations managers. Sandia had
         a process for transferring warranties, however, it did not track
         warranties for materials, workmanship and design. For example,
         Sandia's warranty database did not have a warranty recorded for
         the flush valves that were replaced during the warranty period.

         In 3 of the 40 work orders, Los Alamos and Livermore
         management were aware that work on newly constructed facilities
         was warranted for defective equipment, materials or designs;
         however, incomplete and inaccurate information was available to
         the managers of the new facilities. For example, Livermore
         management told us they assumed the wrong warranty start date
         since not all warranty information, including the start date, had
         been accurately transferred. Livermore replaced the tiles in the
         TSF because, according to the Facility Manager, she thought the
         warranty had expired. Livermore also pointed out that it did not
         have recourse to obtain reimbursement since the amount of design
         errors and omissions for the facility was under a prescribed
         industry standard percentage. This industry standard, however,
         was not identified as a part of the contract provisions. In addition,
         as previously noted, Livermore stopped tracking design errors and
         omission approximately two years prior to final acceptance of the
         building.

         Los Alamos was aware of the warranty provisions and tried to
         contact the warranty contractor to invoke the warranties associated
         with two of the work orders. Los Alamos managers, however, told
         us they did not know they could seek indemnification for replacing
         the concrete at the NSSB after the contractor was unresponsive to
         their request to remediate the defect under the warranty.

         We also found that Laboratories had not established requirements
         regarding the exercise of warranties and that, in some cases, the
         exercise of warranties were not regarded as cost-effective. None
         of the Laboratories, for example, had established policies or
         procedures requiring managers to pursue indemnification from
         contractors who failed to fulfill their responsibilities under
         warranties. Management also told us, as a general observation,
         that it is often more cost-effective for them to repair defective
         work than to pursue a warranty.

         In each case we reviewed, however, the Laboratories had not
         performed a cost benefit analysis to verify that it was cheaper to
         perform the warranty repairs rather than require the contractors to
         perform work. For example, Livermore management stated that if



Page 3                                                    Details of Finding
                        they would have realized a warranty for repairing tile at the TSF
                        was still in effect, they would not have pursued the warranty since
                        the legal cost associated with pursuing the warranty may have
                        exceeded the cost of the repair. Although the design contractor
                        agreed to the design error, a cost resolution was not communicated
                        with the design contractor prior to Livermore repairing the tile.
                        Therefore, it was unclear if the contractor would have contested
                        the applicability of the warranty and that any legal costs would be
                        incurred. Additionally, we were unable to determine whether
                        Livermore performed a cost benefit analysis regarding the floor tile
                        repairs due to conflicting statements by Livermore officials about
                        whether such an analysis had been performed and a lack of
                        documentation.

Warranty Repair Costs   Warranty repairs made by the Laboratories to newly constructed
                        and renovated facilities resulted in unnecessary costs. We
                        estimated, based on our statistical sample of work orders, that the
                        Laboratories may have incurred at least $1.5 million between
                        Fiscal Years 2004 and 2008 on repairs that were covered by
                        warranties. Unnecessary repair costs also could have reduced
                        funds available for direct mission and other mission support work.
                        The Laboratories also potentially voided warranties and reduced
                        their opportunities for remediation when repairs or modifications
                        were made prior to notifying the manufacturer since warranties
                        generally require that the contractor be provided the opportunity to
                        remedy defects.

RECOMMENDATIONS         We recommend that the Managers, Livermore, Sandia, and Los
                        Alamos Site Offices, direct their respective site contractors to
                        develop and implement controls to:

                            1. Ensure that warranties are transferred between project
                               management and facility operations personnel and that
                               warranty information, including warranty start dates, and
                               extensions are accessible to personnel responsible for
                               requesting, planning and performing and authorizing work
                               orders;

                            2. Seek remedy when manufacturers or construction
                               contractors fail to remedy failures, defects or damage; and,

                            3. Analyze whether invoking a warranty or performing the
                               work themselves is most cost effective prior to starting the
                               work.




Page 4                                                                Recommendations
                   We also recommend that the Contracting Officers at each site
                   determine whether the repair costs that were covered by a warranty
                   were reasonable and allowable.

MANAGEMENT AND     NNSA management agreed with the report and stated that the
AUDITOR COMMENTS   recommendations to improve the management of warranties were
                   reasonable. The Livermore Site Office provided technical
                   comments on a draft of this report. We made changes to the
                   report, where appropriate, to address management's comments.
                   Management's comments are included in their entirety in
                   Appendix 3.




Page 5                                                                  Comments
Appendix 1


OBJECTIVE     The objective of this audit was to determine if the National
              Nuclear Security Administration (NNSA) Laboratories exercised
              contract warranties to correct defects in equipment, material,
              workmanship, or design of newly constructed and renovated
              facilities.

SCOPE         The audit was performed between July 2008 and April 2010 at
              Lawrence Livermore, Sandia, and Los Alamos National
              Laboratories (Laboratories). Our review included a statistical,
              dollar unit sample of work orders for repairs to newly constructed
              and renovated facilities and associated equipment between Fiscal
              Years (FY) 2004 and 2008.

METHODOLOGY   To accomplish the objective, we:

                     Reviewed Federal regulations and Department of Energy
                     directives and guidance pertaining to invoking and
                     transferring warranties;

                     Reviewed reports issued by the Government
                     Accountability Office and the Office of Inspector General;

                     Reviewed work orders requesting repairs for newly
                     constructed and renovated facilities and associated
                     equipment between FYs 2004 and 2008;

                     Held discussions with NNSA program officials and site
                     offices as well as Laboratory project and facility
                     management personnel;

                     Performed physical observations at the Laboratories of
                     repairs that were made to items under warranty; and,

                     Projected the estimated cost of performing warranty work
                     using the Defense Contract Audit Agency's E-Z Quant
                     Sampling Program, using a Dollar Unit Variable Sampling
                     technique.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe the
              evidence obtained provides a reasonable basis for our findings and


Page 6                                    Objective, Scope, and Methodology
Appendix 1 (continued)

                    conclusions based on our audit objectives. The audit included tests
                    of internal controls and compliance with laws and regulations to
                    the extent necessary to satisfy the audit objective. Because our
                    review was limited, it would not necessarily have disclosed all
                    internal control deficiencies that may have existed at the time of
                    our audit. We also reviewed performance measures in accordance
                    with the Government Performance and Results Act of 1993
                    relevant to facilities management. We found that the Laboratories
                    did not have performance measures related to the audit objective.
                    We did not rely solely on computer-processed data to satisfy our
                    objectives. However, in those instances where we did utilize
                    computer-processed data, we confirmed the validity of the data,
                    when appropriate, by reviewing supporting source documents.

                    NNSA management waived an exit conference.




Page 7                                         Objective, Scope, and Methodology
Appendix 2

                                      PRIOR REPORTS

Office of Inspector General Reports

      Work Order Estimate and Cost Issues for Site Support Services at Los Alamos National
      Laboratory (DOE/IG-0780, October 2007). A review of work order task estimates
      revealed that a systemic problem existed in that actual costs frequently exceeded
      estimates, often by significant amounts. In one case, actual cost exceeded estimates by
      more than $100,000. In addition, there were significant issues relating to how the support
      service labor and material charges were calculated. For example, one employee charged
      35 hours to a work order after the work was completed. This happened because the Los
      Alamos National Laboratory did not use established controls that limited the amount that
      support services could exceed estimated costs.




Page 8                                                                          Prior Reports
Appendix 3




Page 9       Management Comments
                                                                    IG Report No. OAS-M-10-02

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
